   February 1, 2005




Defense Infrastructure
DoD Workforce Employed to
Conduct Public-Private Competitions
Under the DoD Competitive Sourcing
Program (D-2005-028)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DCMA                  Defense Contract Management Agency
DLA                   Defense Logistics Agency
DoDEA                 Department of Defense Education Activity
DUSD(I&E)             Deputy Under Secretary of Defense (Installations and
                        Environment)
OMB                   Office of Management and Budget
         Office of the Inspector General of the Department of Defense
Report No. D-2005-028                                                  February 1, 2005
  (Project No. D2004CH-0188)

           DoD Workforce Employed to Conduct Public-Private
               Competitions Under the DoD Competitive
                          Sourcing Program



                                Executive Summary

Who Should Read This Report and Why? Defense officials responsible for Office of
Management and Budget (OMB) Circular No. A-76 (Revised) public-private
competitions should read this report because it provides information on how DoD plans
to use contractor support to augment its DoD competitive sourcing workforce and
addresses the need for minimum training standards within DoD.

Background. We performed this audit in response to the requirements of Section 328 of
Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for Fiscal
Year 2005,” October 28, 2004, which required the Inspector General of the Department
of Defense to issue a report to Congress addressing whether DoD employs a sufficient
number of adequately trained civilian employees to satisfactorily conduct the
public-private competitions scheduled by DoD for the next fiscal year, and to administer
any resulting contracts. (See page 1 of the report for the text of the statute.)

On May 29, 2003, OMB issued a revision to OMB Circular No. A-76, “Performance of
Commercial Activities,” which superseded previous versions of the circular. The DoD
competitive sourcing official planned to limit and closely monitor the first group of
competitions performed under the revised circular in order to standardize new approaches
to the revised procedures and ensure successes were achieved. As of June 30, 2004, there
were 32 public-private competitions that were either already announced or in various
stages of preliminary planning. The DoD Office of Housing and Competitive Sourcing,
Military Departments, two Defense agencies, and the DoD field activity we reviewed
each had its own competitive sourcing office, which provided program management,
policy, guidance, and oversight of competitive sourcing. Staffing within each office
varied but consisted of a combination of 66 civilian, 14 military, and 7.5 contractor
positions. (See page 3 of the report.) The Military Departments, Defense agencies, and
DoD field activity we reviewed had awarded 10 contracts for competitive sourcing
support, totaling $5,306,500. (See Appendix C for details.)

Results. DoD does not maintain a sufficient experienced workforce needed to
satisfactorily conduct all the scheduled public-private competitions and uses contractor
support to augment its workforce. The DoD competitive sourcing program fluctuated
from year-to-year due to various legislative and policy changes and most DoD personnel
assigned to work on a public-private competition only participated in the program after
their positions were selected for public-private competition. Consequently, maintaining a
sufficient number of adequately trained civilian employees to satisfactorily conduct
public-private competitions without contractor support would not be an effective use of
DoD resources. DoD also had not established minimum training standards for
competition officials or inexperienced DoD functional and technical experts assigned to
work on public-private competitions, and 6 of the 10 support contracts we reviewed did
not include a key personnel clause. (See the Finding section of the report for details.)

We were unable to verify the sufficiency of the DoD workforce employed to administer
any resulting contracts because none of the Military Departments, Defense agencies, or
the DoD field activity we reviewed had reached a final performance decision from a
public-private competition that favored a private sector provider. We plan to revisit this
issue after DoD has completed more public-private competitions under the revised
circular. (See Appendix B for details.)

The Deputy Under Secretary of Defense (Installations and Environment) should, in
conjunction with the DoD Components, establish standardized training guidelines for
DoD competitive sourcing program offices, to include DoD functional and technical
experts assigned to work on public-private competitions. He should also establish
minimum training standards for all DoD competition officials. Finally, he should advise
DoD component competitive sourcing officials to include a key personnel clause in their
competitive sourcing contracts to require that the contractor maintains the key personnel
indicated in the contractor proposal, or personnel with at least substantially equal ability
and qualifications. (See the Finding section of the report for the detailed
recommendations.)

Management Comments and Audit Response. The Director, Housing and Competitive
Sourcing generally concurred with the report and partially concurred with the
recommendations; however, comments were only partially responsive. The Director
stated that he does not have the authority to require the inclusion of a key personnel
clause in competitive sourcing support contracts, but would remind the component
competitive sourcing officials to make sure their competitive sourcing staffs are trained
to monitor service contracts awarded in public-private competitions. We agree that
proper oversight of service contracts awarded to assist with competitive sourcing is
essential and while the Director, Housing and Competitive Sourcing may not have the
authority to require that a key personnel clause be inserted into contracts, he can advise
component competitive sourcing officials to include a key personnel clause, and can
advertise the inclusion of a key personnel clause as a best practice on his SHARE A-76!
Web site. We request that the Deputy Under Secretary of Defense (Installations and
Environment) provide comments on the final report by March 1, 2005. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objective                                                                 4

Finding
     Competitive Sourcing Workforce                                       5

Appendixes
     A. Scope and Methodology                                            16
         Prior Coverage                                                  17
     B. Administering Resulting Contracts                                18
     C. Number of Public-Private Competitions and Contracts Awarded      21
     D. Report Distribution                                              22

Management Comments
     Deputy Under Secretary of Defense (Installations and Environment)   25
FY 2005 Defense Authorization Act
    Section 328 of Public Law 108-375, “Ronald W. Reagan National Defense
    Authorization Act for Fiscal Year 2005,” October 28, 2004, required that the
    Inspector General of the Department of Defense submit a report to Congress, no
    later than February 1, 2005, addressing whether the Department of Defense:

    (1) employs a sufficient number of adequately trained civilian employees—

        (A) to conduct satisfactorily, taking into account equity, efficiency and
        expeditiousness, all of the public-private competitions that are scheduled to
        be undertaken by the Department of Defense during the next fiscal year
        (including a sufficient number of employees to formulate satisfactorily the
        performance work statements and most efficient organization plans for the
        purposes of such competitions); and

        (B) to administer any resulting contracts.

    Section 328 (2) required the Inspector General of the Department of Defense to
    address whether the Department of Defense had implemented a comprehensive
    and reliable system to track and assess the cost and quality of the performance of
    functions of the Department of Defense by service contractors. We will address
    this requirement in another report.


Background
    Office of Management and Budget Circular No. A-76 Guidance. The Office
    of Management and Budget (OMB) Circular No. A-76, “Performance of
    Commercial Activities,” August 4, 1983, (Revised), and OMB Circular No. A-76
    Revised Supplemental Handbook, March 1996 (Revised), established Federal
    policy regarding the performance of recurring commercial activities. The
    guidance sets forth the principles and procedures for implementing OMB Circular
    No. A-76, including the instructions for calculating the financial advantage to the
    Government of acquiring a service through in-house, contract, or inter-service
    support agreement resources. On May 29, 2003, OMB issued a revision to OMB
    Circular No. A-76, “Performance of Commercial Activities,” that requires
    agencies to centralize oversight responsibility to facilitate fairness in competitions
    and promote trust in the process. The May 29, 2003, revision supersedes the
    previous versions. Any new public-private competitions would be subject to the
    May 29, 2003, version of OMB Circular No. A-76 (revised circular).

    OMB Circular No. A-76 Transition. When OMB issued the revised circular,
    DoD had 216 competitive sourcing initiatives in progress. The 216 competitive
    sourcing initiatives had to meet the transition requirements of the revised circular
    or the DoD competitive sourcing official had to request a deviation from OMB to
    continue under the previous circular. Of the 216 competitive sourcing initiatives,
    150 required a deviation from OMB to continue under the previous circular,


                                          1
55 met the transition requirements of the revised circular permitting them to
continue under the previous circular, and 11 were expected to transition to the
revised circular. On October 24, 2003, the Deputy Under Secretary of Defense
(Installations and Environment) (DUSD[I&E]), the DoD competitive sourcing
official, requested a deviation from OMB for the 150 competitive sourcing
initiatives. On November 17, 2003, OMB authorized DoD to proceed under a
deviation for the limited purpose of completing the 216 competitive sourcing
initiatives identified in the DoD Transition Plan based on OMB specified
application of the deviation. The status of the 216 competitive sourcing
initiatives is shown in the following table.

          Status of Competitive Sourcing Initiatives Identified in the
                 DoD Transition Plan, as of December 2, 2004

                                         Competitive Sourcing
                                             Initiatives

         Decisions Made                           123
         Cancellations Approved                    75
         Cancellations Pending                      8
         OMB Deviations Requested                  10

          Total                                   216

DoD Oversight of Public-Private Competitions. The DoD competitive
sourcing official planned to limit and closely monitor the first group of
competitions performed under the revised circular. He believed that a measured
approach was essential to properly and successfully execute the new
public-private competition procedures and that increased oversight of these initial
public-private competitions was necessary to standardize new approaches to the
revised procedures and ensure successes were achieved. On August 5, 2004, the
Director for Housing and Competitive Sourcing issued a memorandum on the
oversight of the initial DoD public-private competitions that directed DoD
Components to obtain approval from the Office of Housing and Competitive
Sourcing before making public announcement or congressional notification of a
standard or streamlined public-private competition.

Competitive Sourcing Guidance. As of the date of this report, the Office of
Housing and Competitive Sourcing had not formally issued guidance
implementing the revised circular. The Office of Housing and Competitive
Sourcing planned to reissue DoD Directive 4100.15, “Commercial Activities
Program,” March 10, 1989, with the revised title, “Competitive Sourcing
Program.” The Office of Housing and Competitive Sourcing was also providing
increased oversight to the initial public-private competitions and then planned to
incorporate any lessons learned into future guidance. However, some Military
Departments and Defense agencies were not waiting for the reissue of DoD
Directive 4100.15 and planned to issue their guidance implementing the revised
circular and then update, as necessary, when the Office of Housing and
Competitive Sourcing issued formal guidance.



                                     2
Announced or Planned Public-Private Competitions. As of June 30, 2004,
there were 32 public-private competitions that were either already announced or
in various stages of preliminary planning under the revised circular. These
standard or streamlined competitions belonged to the Army, the Army Corps of
Engineers, the Navy, the Air Force, the United States Marine Corps, the Defense
Logistics Agency (DLA), the Defense Contract Management Agency (DCMA),
and the Department of Defense Education Activity (DoDEA).

Staffing of Competitive Sourcing Offices. The Military Departments, Defense
agencies, and DoD field activity we reviewed each had its own competitive
sourcing division at the headquarters level. Each of the competitive sourcing
offices provided program management, policy, guidance, and oversight of their
competitive sourcing programs. Staffing within each office varied, but consisted
of a combination of government personnel (civilian and Military) and contractor
support. Figure 1 shows the staffing of the competitive sourcing offices we
reviewed. The Military Departments, Defense agencies, and DoD field activity
may have subordinate competitive sourcing offices in the field, such as major
commands or installations, in addition to the competitive sourcing offices shown
in Figure 1.

                                                             DUSD(I&E)
                                                         3.5 positions
                                                            3.5 civilian



    Army HQ                  Navy HQ                 Air Force HQ             DLA HQ         DCMA HQ         DoDEA HQ
 5.5 positions            5 positions           10 positions               6 positions       1 position      6 positions
    3 civilians              3 civilians           5 civilians                5 civilians       1 civilian      6 civilians
    2.5 contractors          1 Military            5 Military                 1 contractor
                             1 contractor



           IMA HQ                   Strategic Sourcing
                                     Acquisition COE
       3 positions
          1 civilian                9 positions                               AFMA
          2 contractors                9 civilians                                                AFMA Air Force Manpower
                                                                       26 positions                       Agency
                                                                          18 civilians            COE Center of Excellence
                                     Virtual Systems                       8 Military             HQ    Headquarters
         USACE HQ                      Command                                                    IMA   Installation
                                     Acquisition COE                                                      Management Agency
       4 positions
                                    8 positions                                                   USACE U.S. Army Corps of
          4 civilians
                                       7 civilians                                                        Engineers
                                       1 contractor




Figure 1. Staffing of the Competitive Sourcing Offices Reviewed

In addition to headquarters competitive sourcing offices, the Military
Departments had offices with additional personnel dedicated to competitive
sourcing. The Army Installation Management Agency and the Army Corps of
Engineers both had competitive sourcing offices that provided guidance and


                                                        3
    oversight for public-private competitions. The Navy established two Acquisition
    Centers of Excellence (the Strategic Sourcing Acquisition and the Virtual
    Systems Command Centers of Excellence) that will be responsible for the
    preliminary planning and performance work statement development stages of
    public-private competitions in the Navy and Marine Corps. The Air Force
    established a Competitive Sourcing Division within the Air Force Manpower
    Agency to implement the Air Force-wide commercial activities program.

    DoD Transition Team. The DUSD(I&E) Assistant Director for Housing and
    Competitive Sourcing led a competitive sourcing transition team. According to
    the Assistant Director, the team reviews each DoD Component’s approach to or
    problems with implementing aspects of the public-private competition process
    under the revised circular. The results of the transition team meetings would be
    used to develop guidance to standardize the DoD public-private competition
    procedures. The team members were from DoD competitive sourcing,
    acquisition, and human resources offices. Selected transition team members also
    participated as subject matter experts in advising the Defense Acquisition
    University on competitive sourcing training material for the Overview and
    Preliminary Planning Courses.


Objective
    Our overall audit objective was to determine whether DoD employs a sufficient
    number of adequately trained civilian employees to satisfactorily conduct the
    public-private competitions scheduled during the next fiscal year, including a
    sufficient number of employees to satisfactorily formulate the performance work
    statements and most efficient organization plans and to administer any resulting
    contracts. See Appendix A for a discussion of the scope and methodology and for
    prior coverage related to the objectives. See Appendix B for a discussion of the
    workforce employed to administer any resulting contracts.




                                        4
           Competitive Sourcing Workforce
           DoD used, or planned to use, contractor support to augment its workforce
           conducting public-private competitions because it does not maintain a
           sufficient experienced workforce needed to perform preliminary planning
           and develop performance work statements, quality assurance plans, and
           agency tenders for public-private competitions under OMB Circular
           No. A-76 (competitive sourcing program). DoD did not maintain a
           sufficient experienced workforce because:

                  •   the DoD competitive sourcing program fluctuated from
                      year-to-year due to various legislative changes and policy
                      changes. The number of public-private competitions DoD
                      announced annually from FY 1995 through FY 2004 ranged
                      from 453 competitions (FY 1999) to 19 competitions
                      (FY 2004); and

                  •   most DoD personnel assigned to work on a public-private
                      competition only participated in the program after their
                      positions were selected for public-private competition, and
                      therefore were neither experienced nor adequately trained.

           As a result, maintaining a sufficient number of adequately trained civilian
           employees to satisfactorily conduct public-private competitions without
           contractor support would not be an effective use of DoD resources.
           However, maintaining a highly trained core DoD workforce was essential
           for overseeing the contractor support and inexperienced DoD personnel.
           Additionally, assuring that contractor support staff was experienced and
           adequately trained was also significant to the process.


Use of Contractor Support to Augment the Competitive
  Sourcing Workforce
    The Military Departments, Defense agencies, and field activity (hereafter referred
    to as DoD Components in this report) routinely used, or planned to use, contractor
    support to augment their DoD competitive sourcing workforce. Specifically,
    contractor support was used, or was planned to be used, to perform preliminary
    planning and to develop performance work statements, quality assurance plans,
    and agency tenders for public-private competitions under the revised circular.
    The DoD Components we reviewed had awarded 10 contracts for competitive
    sourcing support, totaling $5,306,500. See Appendix C for a summary of the
    awarded contracts.

    Contractor Support. We reviewed planned competitions for the Army
    Installation Management Agency, the Army Corps of Engineers, Navy, Air Force,
    DLA, DCMA, and DoDEA. The Army Corps of Engineers, DCMA, and DoDEA
    announced 22 competitions under the revised circular and had awarded contracts
    and used contractor support to augment its competitive sourcing workforce. Even


                                        5
though the Army Installation Management Agency, Navy, Air Force, and DLA
had not publicly announced any competitions, they had awarded, or planned to
award, contracts for contractor support in anticipation of future public-private
competitions.

       Army Installation Management Agency. The Army Installation
Management Agency used contractor support to augment its workforce in its
Competitive Sourcing Office. In addition, the Installation Management Agency
awarded a contract in anticipation of a future public-private competition to
Management Analysis, Inc., for $265,440, to provide general support for the
public-private competition. The contract included preliminary planning tasks,
performance work statement development, quality assurance surveillance plan
development, and agency tender development.

        Army Corps of Engineers. The Army Corps of Engineers used
contractor support to augment its Strategic Sourcing Program Office workforce
and used contractor support to augment its workforce in preparing performance
work statements and agency tenders. The Army Corps of Engineers Strategic
Sourcing Program Office provided policy and oversight for the competitive
sourcing program of the command. The Army Corps of Engineers issued task
orders to Logistics Management Institute, for $551,941, to provide strategic
sourcing implementation support and acquisition related analysis to the Strategic
Sourcing Program Office.

       The Army Corps of Engineers publicly announced two standard
competitions under the revised circular, one in June 2004 and one in
August 2004. The Army Corps of Engineers awarded a contract, with multiple
delivery orders, to Interactive Technologies Group, for $1,261,957, to provide
preliminary planning tasks, quality assurance surveillance plan development, and
performance work statement development for both of the competitions. The
Army Corps of Engineers also awarded one contract to Sytel, Inc., for $548,187,
and another contract to E. L. Hamm and Associates, for $68,632, to develop the
agency tenders of the competitions.

        Navy. The Navy used contractor support to augment its workforce in the
Competitive Sourcing Office and planned to use contractor support to augment its
workforce in preparing performance work statements and agency tenders for
public-private competitions. The Navy Competitive Sourcing Office prepared
guidance and policy for the Strategic Sourcing Program of the Navy. The
Competitive Sourcing Office also provided funding for the program including
contractor support. The Navy awarded a contract to Value Systems Services, for
$135,463, for technical and analytical support to complete the commercial
activities products for a planned public-private competition. In addition, the
Navy planned to obtain contractor support by awarding separate multiple award
contracts for preliminary planning and development of performance work
statements and development of agency tenders.

      Air Force. The Air Force used contractor support to augment its
workforce for preliminary planning and planned to use contractor support to
augment its workforce in developing performance work statements and agency


                                     6
tenders for public-private competitions in the future. Specifically, the Air Force
used a General Services Administration contract with Science Applications
International Corporation for assistance with multiple preliminary planning
efforts for a total of $1.5 million. In the future, the Air Force will use GovWorks
to award three blanket purchase agreements, one each for preliminary planning,
developing the performance work statement, and developing the agency tender.
GovWorks is a self-sustaining Franchise Fund entity of the Department of
Interior’s Minerals Management Service authorized to perform contracting
functions for other Government agencies. The Franchise Fund agencies
established fees to cover their total estimated costs for providing the services.
The Air Force Competitive Sourcing and Privatization Division will be
responsible for soliciting and awarding contracts for the three blanket purchase
agreements. Once the blanket purchase agreements are in place, the major
commands will be responsible for working with GovWorks to award individual
task orders.

        DLA. DLA used contractor support to augment its workforce in the
Competitive Sourcing Division and planned to use contractor support to augment
its workforce in preparing performance work statements and agency tenders for
public-private competitions. The DLA Competitive Sourcing Division provided
policy, guidance, and oversight for DLA public-private competitions. DLA also
had commercial activities program offices at its major field commands, which
would manage the public-private competitions. The staffing of the offices
depended on the number of competitions being managed. According to the Chief
of the Competitive Sourcing Division, DLA sites under study would provide
subject matter experts to each study team and contractor support would be
provided to each study team to develop the performance work statement and the
agency tender to help ensure the study teams had professional assistance and a
consistent approach.

        DCMA. DCMA used contractor support to augment its workforce in
preparing performance work statements and agency tenders for public-private
competitions. DCMA had publicly announced 12 streamlined competitions under
the revised circular. DCMA awarded a contract to BAE Systems, for $112,174,
to provide analysis of preliminary planning data, to develop the quality assurance
surveillance plan and the performance work statement, and to assist with market
research to develop private sector prices for the 12 competitions. DCMA also
awarded a contract to Warden Associates, Inc., for $106,409, to provide training
and consultative support to the agency tender official and advice on developing
the cost of the most efficient organization for the 12 competitions.

        DoDEA. DoDEA used contractor support to augment its workforce in
preparing performance work statements and agency tenders for public-private
competitions. DoDEA had publicly announced eight public-private competitions
under the revised circular. Two employees from the Commercial Activities
Program Office were assigned to each competition, one to assist with preparing
the performance work statement and one to assist with preparing the agency
tender. DoDEA issued a task order against a General Services Administration
contract with Warden Associates, Inc., for $484,527, for initial study planning
and performance work statement development for its competitions. DoDEA



                                     7
    issued a second task order against that contract, for $271,770, for development of
    the agency tenders for its competitions.

           According to the Chief of the Commercial Activities Program Office, the
    procurement function of DoDEA was never staffed to handle the increase in
    workload brought about by the competitive sourcing program. As an alternative,
    DoDEA provided funding to GovWorks to review and advertise solicitations,
    accept bids, assist with vendor selection, and administer all contracts awarded
    through DoDEA public-private competitions. According to the Chief of the
    Commercial Activities Program Office, DoDEA would not have been able to
    execute its competitive sourcing program without the assistance of GovWorks.


Fluctuation of the DoD Competitive Sourcing Program
    The DoD competitive sourcing program fluctuated from year-to-year because of
    various influences such as the Business Initiatives Council, OMB’s major policy
    rewrite, and congressional legislative changes. These influences caused
    fluctuations to the number of competitive sourcing initiatives DoD announced
    each year. The number of competitive sourcing initiatives DoD announced
    annually from FY 1995 through FY 2004 ranged from 453 initiatives (FY 1999)
    to 19 initiatives (FY 2004).

    Number of Competitive Sourcing Initiatives Announced Annually. DoD
    announced 41 competitive sourcing initiatives in FY 1995, 164 initiatives in
    FY 1996, 417 initiatives in FY 1997, and 400 initiatives in FY 1998. The
    announced number of competitive sourcing initiatives decreased significantly in
    FY 2002, when the Business Initiatives Council pursued alternatives to
    public-private competitions which occurred in conjunction with the
    congressionally mandated Commercial Activities Panel review of the previous
    circular, which led to OMB’s major revisions to the circular issued in May 2003.
    Additionally, new legislation or legislative changes continued to affect the DoD
    competitive sourcing program. Section 335 of Public Law 108-136, “National
    Defense Authorization Act for Fiscal Year 2004,” November 24, 2003, required
    DoD to delay implementation of the revised circular until 45 days after DoD
    submitted a report to Congress on the effects of the revision. DoD submitted the
    report and DoD implementation of the revised circular started in April 2004.

    Figure 2 shows the overall fluctuation of the DoD competitive sourcing program
    and Figure 3 shows the fluctuation of the number of competitive sourcing
    initiatives announced by the Army, Navy, Air Force, and Defense agencies and
    field activities.




                                         8
       500
       450
       400
       350
       300
       250
       200
       150
       100
        50
         0
             1995    1996   1997   1998       1999    2000    2001     2002      2003       2004

     Figure 2. Number of Competitive Sourcing Initiatives Announced by DoD
     from FY 1995 to FY 2004


       250

       200

       150

       100

        50

         0
             1995   1996    1997   1998   1999       2000    2001    2002     2003      2004

                Army        Navy      Air Force         Defense agencies/field activities

     Figure 3. Number of Competitive Sourcing Initiatives Announced by the
     Army, Navy, Air Force, and Defense Agencies and Field Activities from
     FY 1995 to FY 2004


DoD Personnel Participating in the Competitive Sourcing
  Program
     Typically, DoD personnel assigned to participate in a public-private competition
     as a member of the performance work statement team or the most efficient
     organization team were functional or technical experts in their field and were
     selected to participate on the public-private competition because their function


                                          9
    was scheduled to be competed. Therefore, most DoD personnel assigned to the
    teams were neither experienced nor adequately trained on the competitive
    sourcing process. The DoD Components would plan for contractors to provide
    just-in-time training on the competitive sourcing process to these personnel.

    Functional and Technical Experts. The revised circular required performance
    work statement and most efficient organization teams to be composed of
    functional and technical experts. Functional and technical experts generally work
    in the function being competed and, therefore, possess the knowledge needed to
    develop a performance based work statement and an accurate agency tender. The
    functional and technical experts involved in the development of the performance
    work statement and agency tender, however, rarely possessed prior public-private
    competition experience or had competitive sourcing training. Prior to being
    selected to work on the public-private competition, the job duties of these experts
    would not have a requirement for public-private competition experience.

    Just-In-Time Training. The DoD Components recognized that functional and
    technical experts did not possess the experience needed to develop performance
    work statements or agency tenders and required contractors to provide
    just-in-time training to the personnel. Of the 10 contracts reviewed, 7 required
    the contractor to provide training. For example, the Army Corps of Engineers
    performance work statement team was composed of six functional and technical
    experts, who were engineers and union representatives. Although two members
    had extensive experience in the development of performance based work
    statements, none of the team members had experience in public-private
    competitions. Consequently, the Army Corps of Engineers required that
    Interactive Technologies Group provide training to these individuals in addition
    to performing preliminary planning and developing the performance work
    statement and quality assurance surveillance plan. DoDEA also required its
    support contractor, Warden Associates, Inc., to provide just-in-time training to the
    performance work statement team. One DoDEA employee we interviewed was
    involved in a public-private competition and had no prior competitive sourcing
    experience and did not expect to be involved in another competition in the future.

    Ensuring that all personnel identified as performing commercial activities were
    trained in competitive sourcing or to conduct public-private competitions would
    not be practical or an efficient use of DoD resources; however, the DUSD(I&E)
    should establish standardized training guidelines tailored for DoD competitive
    sourcing program offices, to include functional and technical experts assigned to
    work on public-private competitions.


Maintaining a Highly Trained DoD Workforce
    Maintaining a highly trained core DoD workforce was essential for overseeing the
    contractor support and inexperienced DoD personnel. In addition, assuring
    contractor support staff is experienced and adequately trained is also significant to
    the process.



                                         10
Personnel Dedicated to Competitive Sourcing. The DoD Components each had
its own competitive sourcing office. The competitive sourcing offices were
staffed with a core workforce that provided program management, policy,
guidance, and oversight of competitive sourcing. In addition to headquarters
competitive sourcing offices, the Military Departments had offices with additional
personnel dedicated to competitive sourcing; however, they provided expertise
and oversight in different ways.

        Army Installation Management Agency. The Army Installation
Management Agency had competitive sourcing offices that provided guidance
and oversight for public-private competitions. The Installation Management
Agency had competitive sourcing personnel at five of its seven regions, providing
guidance and oversight for public-private competitions. According to the Office
of the Assistant Chief of Staff for Installation Management, the Army considered
developing a central group of core individuals, but determined it would be best to
maintain control of the competitive sourcing process at the installation level.

        Navy Acquisition Centers of Excellence. The Navy established two
Acquisition Centers of Excellence (the Strategic Sourcing and the Virtual
Systems Command Acquisition Centers of Excellence) that were composed of a
core group of individuals within the Navy maintaining expertise in the
competitive sourcing process to work with claimants/activities and provide
oversight of contractor support during preliminary planning and development of
the performance work statement. The Centers of Excellence will be responsible
for the preliminary planning and performance work statement development stages
of public-private competitions in the Navy and Marine Corps and will also
provide acquisition support for the competitions. The Navy anticipates that the
use of the Navy Acquisition Centers of Excellence should result in eliminating
inefficiencies that arise from conducting public-private competitions for similar
functions at multiple sites, focusing on execution of timely studies, analyses, and
competitions, and ensure independence from external influences.

        Air Force Manpower Agency. The Air Force also established a
competitive sourcing division within the Air Force Manpower Agency to
implement the Air Force commercial activities program. The competitive
sourcing division personnel provided technical assistance for strategic sourcing
preliminary planning studies and competitive sourcing studies, to include data
validation and policy development and review. In addition, the competitive
sourcing division managed the Air Force's portion of the Defense Commercial
Activity Management Information System and maintained commercial activities
guidebooks.

Minimum Training Standards. On February 1, 2001, the Deputy Under
Secretary of Defense (Installations) issued a memorandum regarding OMB
Circular No. A-76 training standards and stated that DoD must continually strive
to improve and strengthen education and training of those involved to preserve
fairness in the process and reduce the likelihood of errors. The memorandum
directed DoD Components to set minimum training standards for key individuals
involved in public-private competitions. The training policy remains relevant
although it was issued prior to the revised circular.



                                    11
Of the DoD Components reviewed, only the Army Corps of Engineers and DLA
had formally established minimum training standards. The Army Corps of
Engineers established minimum training standards in its Strategic Sourcing
Program Management Plan and DLA established minimum training standards in
its A-76 Competition Guidebook.

DoD Standardized Competitive Sourcing Training. Section 335 of Public
Law 108-136, “National Defense Authorization Act for Fiscal Year 2004,”
November 24, 2003, required DoD to submit a report to Congress on the effects
of the revisions to the OMB Circular No. A-76. DoD was required to respond on
its plans to provide training to DoD personnel regarding the revised circular,
including how the training would be funded, how personnel would be selected to
receive the training, and the number likely to receive training.

In February 2004, DoD reported to Congress that standardized training on the
competitive sourcing procedures required by the revised circular was being
developed by the Air Force in conjunction with the Defense Acquisition
University. The report stated that approximately seven competitive sourcing
related courses were being developed. The report further stated that once courses
were institutionalized at the Defense Acquisition University, DoD Components
would be required to budget for competitive sourcing training, just as they include
funding in their budgets for any DoD training requirement.

Defense Acquisition University. The Defense Acquisition University, in
conjunction with the Air Force, developed two courses, Preliminary Planning and
Executive Overview, which the Defense Acquisition University is now offering.
In addition, the Defense Acquisition University plans to offer four additional
courses, Cost Estimate and Baseline Cost Development, Acquisition
Responsibilities for Public-Private Competitions, Development of Agency and
Public Reimbursable Tenders, and Post Competition Accountability.

The Defense Acquisition University relied on $445,000 in funding provided by
the Air Force to develop the Preliminary Planning and Executive Overview
courses. The Defense Acquisition University was attempting to obtain funding
under the Service Acquisition Reform Act that could be used for the development
of future competitive sourcing training courses. The President of the Defense
Acquisition University stated that the University is committed to providing
competitive sourcing training, and if funding through the Service Acquisition
Reform Act does not transpire, priorities within the University would need to be
adjusted to accomplish competitive sourcing training. However, he emphasized
that the Service Acquisition Reform Act funding was really required.

The DUSD(I&E), in conjunction with the DoD Components, should establish
minimum training standards for all DoD competition officials and review all
Defense Acquisition University courses for standardization and consistency with
the DoD Competitive Sourcing Program.




                                    12
Experienced Contractor Personnel
    It is important to ensure that the contractor support staff used to augment Military
    Department and Defense agency competitive sourcing personnel is experienced
    and adequately trained. Skilled experienced professional and technical personnel
    are essential for successful contractor accomplishment of preliminary planning,
    performance work statement, and agency tender. One method of ensuring skilled
    and experienced contractor support is to include contractor proposal evaluation
    factors for corporate experience and personnel resources in the solicitation.
    Corporate experience should be efforts performed by the contractor key personnel
    in contracts that are similar in scope, complexity, and size to the requirements of
    the request for proposals. The offeror should also demonstrate a feasible
    approach for providing the key personnel resources and management required to
    deliver quality products and services as required by the request for proposal.

    The inclusion of a key personnel clause in the contract is a means to ensure that
    the contractor maintains the key personnel indicated in the contractor proposal. If
    a key personnel clause is included in the contract, the contractor agrees that key
    personnel will not be removed from the contract work or replaced without first
    notifying the contracting officer. If key personnel become unavailable for work,
    or are expected to devote substantially less effort to the work than indicated in the
    proposal, the contractor must promptly replace such personnel with personnel of
    at least substantially equal ability and qualifications. The contractor must provide
    a resume for the proposed substitute for the contracting officer’s approval. Of
    10 contracts we reviewed, only 4 included a key personnel clause. Including a
    key personnel clause in contracts will help ensure that the contractor support
    personnel is experienced in conducting work associated with the revised circular
    and that the level of expertise indicated in the contractor’s proposal is maintained
    throughout the contract performance period.


Conclusion
    Due to the significant program fluctuation from year-to-year and various
    legislative and policy changes, maintaining a sufficient number of adequately
    trained civilian employees to satisfactorily conduct public-private competitions
    without contractor support would not be an effective use of DoD resources.
    Furthermore, it would not be practical or an effective use of DoD resources to
    ensure that all personnel identified as performing commercial activities were
    trained in competitive sourcing or to conduct public-private competitions,
    especially when functional and technical experts generally do not participate in
    more than one public-private competition. In FY 2003, DoD identified
    207,652 civilian positions dedicated to performing commercial activities. These
    positions were identified as potential candidates for competition under the
    provisions of OMB Circular No. A-76. We believe it is reasonable that DoD used
    and planned to use contractor support to augment its workforce conducting
    public-private competitions and to provide just-in-time training. However,
    maintaining a highly trained core DoD workforce is essential for overseeing the
    contractor support and inexperienced DoD personnel Additionally, DoD should


                                         13
    ensure that contractor support personnel are experienced in conducting
    public-private competitions and that this level of expertise is maintained
    throughout the performance of the contract.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Deputy Under Secretary of Defense (Installations
    and Environment), in conjunction with the DoD Components,

           a) establish standardized training guidelines for DoD competitive
    sourcing program offices, to include DoD functional and technical experts
    assigned to work on public-private competitions, and

            b) establish minimum training standards for all DoD competition
    officials.

    Management Comments. The Director, Housing and Competitive Sourcing,
    partially concurred stating that he plans to establish minimum standardized
    training guidelines for the DoD competitive sourcing program. He intends to
    focus on the training of the oversight and management of the competitive
    sourcing program, specifically for the individuals who need the core expertise to
    sustain a Component’s competitive sourcing program. The training should
    include the designation and oversight of inherently governmental and commercial
    activities, preparation of annual inventories, management of budgets for
    competitions, responses to administrative disputes and litigation, development
    and interpretation of program policy, oversight of public-private competitions,
    and management of competitive sourcing service contracts. He also plans to
    establish minimum standardized training guidelines for individuals who are
    directly involved in performing competitions, specifically the five competition
    officials, and all members of the source selection evaluation board, the most
    efficient organization team, and the performance work statement team. The
    Director stated that the competitive sourcing program’s policy and procedures
    must be established before training requirements are established and therefore
    does not anticipate taking the actions described above before FY 2006.

    Audit Response. The Director, Housing and Competitive Sourcing, comments
    are responsive and meet the intent of the recommendation. We agree with the
    Director’s plan for establishing minimum standardized training guidelines for the
    individuals who need the core expertise to sustain a Component’s competitive
    sourcing program and for all members of the source selection evaluation board,
    most efficient organization team, and performance work statement team,
    including the competition officials. No further comments are required.

    2. We recommend that the Deputy Under Secretary of Defense (Installations
    and Environment) advise the DoD component competitive sourcing officials
    to include a key personnel clause in their competitive sourcing contractor
    support contracts to require that the contractor maintains the key personnel

                                         14
indicated in the contractor proposal, or personnel with at least substantially
equal ability and qualifications.

Management Comments. The Director, Housing and Competitive Sourcing
partially concurred stating that the DUSD(I&E) does not have the authority to
require the inclusion of a clause in a service contract and that any initiative to
establish a key personnel clause should be under the purview of the Federal
Acquisition Council. The Director stated that he shared the auditors concerns
about maintaining the quality of contractor personnel throughout a competition;
however, he believes that some of the problems associated with competitive
sourcing service contracts may be attributable to the lack of proper oversight of
service contracts awarded to assist with competitive sourcing. He proposes that
the DoD competitive sourcing official send a memo to the component competitive
sourcing officials, reminding them to ensure that their competitive sourcing staffs
are trained to monitor service contracts awarded in public-private competitions, in
accordance with Federal Acquisition Regulation Subpart 37.5 and Office of
Federal Procurement Policy Letter 93-1.

Audit Response. Although the Director, Housing and Competitive Sourcing
partially concurred with the recommendation, we do not consider the comments
responsive. We agree that proper oversight of service contracts awarded to assist
with competitive sourcing is essential; however the intent of the recommendation
was to advise component competitive sourcing officials to include a key
personnel clause to ensure support contractors maintained experienced personnel
throughout the duration of the contract. While the Director, Housing and
Competitive Sourcing may not have the authority to require that a key personnel
clause be inserted into contracts, he can advise component competitive sourcing
officials to include a key personnel clause, and can encourage the inclusion of a
key personnel clause as a best practice on his SHARE A-76! Web site. We
believe that the inclusion of a key personnel clause in competitive sourcing
support contracts will help to ensure that the contractor support personnel is
experienced in conducting work associated with the revised circular and that the
level of expertise indicated in the contractor’s proposal is maintained throughout
the contract performance period. Therefore, we ask that he reconsider his
position and provide additional comments in response to the final report.




                                    15
Appendix A. Scope and Methodology
 We performed this audit in response to the requirements in Section 328 of Public
 Law 108-375, “Ronald W. Reagan National Defense Authorization Act for Fiscal
 Year 2005,” October 28, 2004. We based the audit finding on a review of the
 DUSD(I&E) Office of Housing and Competitive Sourcing list of public-private
 competitions that were either already announced or in various stages of preliminary
 planning. As of June 30, 2004, there were 32 competitions on the list, but 4 of the
 competitions were removed from the list during the course of the audit. The
 remaining 28 competitions belonged to the Army Corps of Engineers, the Navy, the
 Air Force, DLA, DCMA, and DoDEA.

 We reviewed applicable OMB guidance and DoD Directives, Instructions, and
 Memorandums, dated from September 1985 through August 2004, related to the
 competitive sourcing program. We reviewed the draft instructions for the
 commercial activities programs of the Army, Navy, Air Force, and DLA. We
 reviewed the competitive sourcing programs of the Army, Navy, Air Force, DLA,
 DCMA, and DoDEA. We interviewed and obtained documentation from competitive
 sourcing personnel from the DUSD(I&E) Office of Housing and Competitive
 Sourcing and the competitive sourcing offices listed in Appendix C. We also held
 teleconferences with the performance work statement and most efficient organization
 team leaders for the Army Corps of Engineers competitions, met with the
 performance work statement team leader for a DoDEA competition, and held a
 teleconference with the agency tender official for a DoDEA competition.

 We reviewed 10 contracts that were awarded for competitive sourcing support with
 the Army, Navy, Air Force, DCMA, and DoDEA, to identify contract requirements
 for performance work statement, quality assurance plan, and agency tender
 development; key personnel clauses; and just-in-time training requirements. We
 reviewed data obtained from the DoD Commercial Activities Management
 Information System to identify the number of public-private competitions that DoD
 announced from FY 1995 through FY 2004. We also attended the pilot offering of
 the Executive Overview course at the Defense Acquisition University, Fort Belvoir,
 Virginia; and met with and obtained documentation from the instructor responsible
 for developing and teaching the competitive sourcing courses at the Defense
 Acquisition University. We also met with the President, Defense Acquisition
 University to discuss plans for developing, delivering, and funding competitive
 sourcing courses in the future.

 We performed this audit from June 2004 through December 2004 in accordance with
 generally accepted government auditing standards.

 The scope was limited in that we did not review the management control program
 because the audit scope was limited to the objective specifically required by the
 National Defense Authorizations Act for Fiscal Year 2005.

 Use of Computer-Processed Data. We relied on the DoD Commercial Activities
 Management Information System to identify the number of public-private


                                        16
  competitions that DoD announced from FY 1995 through FY 2004. Due to time
  constraints, we did not test the accuracy of the computer-processed data; however, we
  did not find any errors that would preclude use of the data to meet the audit objective
  or that would change the conclusions in this report.

  Government Accountability Office High-Risk Areas. The Government
  Accountability Office has identified several high-risk areas in DoD. This report
  provides coverage of the Strategic Human Capital Management, Defense
  Infrastructure Management, and Defense Contract Management high-risk areas.


Prior Coverage
  During the last 5 years, the Government Accountability Office and the Inspector
  General of the Department of Defense have issued numerous reports discussing the
  OMB Circular No. A-76 process and public-private competitions. Unrestricted
  Government Accountability Office reports can be accessed at http://www.gao.gov.
  Unrestricted Inspector General of the Department of Defense reports can be accessed
  at http://www.dodig.osd.mil/audit/reports.




                                          17
Appendix B. Administering Resulting Contracts
   None of the Military Departments, Defense agencies, or the field activity we
   reviewed had reached a final performance decision from a public-private
   competition that favored a private sector provider. Therefore, although we were
   able to determine the plans of the DoD Components reviewed, we were unable to
   actually verify the sufficiency of the DoD workforce employed to administer any
   resulting contracts from planned public-private competitions. We plan to revisit
   this issue after DoD has completed more public-private competitions under the
   revised circular.

   The Army Corps of Engineers had publicly announced 2 standard competitions,
   DCMA had publicly announced 12 streamlined competitions, and DoDEA had
   publicly announced 8 streamlined competitions under the revised circular;
   however, only 15 streamlined public-private competitions were completed by
   January 19, 2005, and none had resulted in a contract award.

           Contract Administration for Standard Competitions. The revised
   circular stated that an agency shall implement the performance decision resulting
   from a standard competition favoring a private sector source by awarding a
   contract in accordance with the Federal Acquisition Regulation. A standard
   competition should not exceed 12 months (18 months with a waiver) from public
   announcement (start date) to performance decision (end date).

           The Army Corps of Engineers publicly announced two standard
   competitions, one in June 2004 and one in August 2004. Performance decisions
   were not expected for approximately 12 to 18 months after the public
   announcement was made. If a performance decision favored a private sector
   source, the Army Corps of Engineers planned to administer the resulting contract
   through its Baltimore District Office. According to the Strategic Sourcing
   Program Manager, the Baltimore District Office was selected to provide
   contracting support for all Army Corps of Engineers competitions to provide
   consistency across the command.

           Contract Administration for Streamlined Competitions. The revised
   circular stated that an agency shall implement the performance decision resulting
   from a streamlined competition favoring a private sector source by issuing a
   solicitation to determine a private sector provider and awarding a contract in
   accordance with the Federal Acquisition Regulation. A streamlined competition
   should not exceed 90 days (135 days with a waiver) from public announcement
   (start date) to performance decision (end date).

           DoDEA publicly announced four streamlined competitions in July 2004.
   In November 2004, DoDEA made performance decisions in favor of the agency
   provider for the four competitions. DoDEA publicly announced another
   streamlined competition in August 2004. On December 13, 2004, DoDEA posted
   a special notice on the FedBizOps Web site stating that the streamlined
   competition indicated private sector performance may be more cost-effective.


                                       18
The decision to convert to contract performance was pending receipt of private
sector offers in response to a solicitation. DoDEA planned to perform a standard
competition to solicit private sector offers, which should take 6 to 9 months.
DoDEA announced three additional streamlined competitions in November 2004.
Performance decisions were not expected for 135 days. If the performance
decision for any of the competitions favored a private sector provider, DoDEA
planned for GovWorks to administer the resulting contracts.

        DCMA publicly announced 12 streamlined competitions in August 2004.
In December 2004, DCMA made performance decisions in favor of the agency
provider for 11 of the 12 competitions. DCMA also made an interim decision to
issue a solicitation to the private sector for the remaining competition. The final
performance decision on the competition will be made after responses to the
solicitation are analyzed. According to the Competitive Sourcing Program
Manager, if the performance decision favored a private sector provider, DCMA
planned to administer the contract through its headquarters procurement division.

The Army Installation Management Agency, Navy, and Air Force had not
publicly announced any public-private competitions under the revised circular.

        Army Contract Administration. The Army Installation Management
Agency had not publicly announced any public-private competitions under the
revised circular. However, according to personnel at the Army Contracting
Agency, any contracts resulting from a performance decision favoring a private
sector provider in a public-private competition would be administered by the
Army Contracting Agency personnel at the installation where the competition was
conducted.

       Army Contracting Agency. The Army Contracting Agency is a field
operating agency reporting to the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology. The Army Contracting Agency became an
operational agency on October 1, 2002. The mission of the Army Contracting
Agency is to provide command and control of the regional and installation
contracting offices. The Army Contracting Agency was created to ensure that
Army contracting was reshaped to consolidate similar and common-use contracts
to reduce redundancy and leverage economies of scale, and to reduce
management overhead and realign personnel to maximize efficient and effective
operations.

       The Army Contracting Agency directly supports the Installation
Management Agency, a major customer of the Army Contracting Agency, by
providing the base operations contracting support within the Directorate of
Contracting for all training and warfighter Army installations. On October 1,
2002, installation contracting offices on Army installations were assigned to the
Army Contracting Agency to provide support to the garrison commanders.

       Army Contracting Agency Concerns. The Army Contracting Agency
expressed concerns about the staffing requirement for administering resulting
contracts from public-private competitions. In a March 2004 information paper,
Army Contracting Agency personnel stated there was an unfinanced OMB
Circular No. A-76 requirement because of additional contract administration and


                                    19
oversight it received as a result of a consolidation of Army contracting activities.
The OMB Circular No. A-76 establishes contract administration factors and
allowable grades based on the staffing of the most efficient organization.
However, according to the Army Contracting Agency, the positions that should
have been directed to perform contract administration based on the OMB Circular
No. A-76 conversion chart belonged to the garrison commanders at the time the
public-private competitions were completed and the positions were diverted to
other areas, with no transfer of dollars or positions to the Director of Contracting
that supports OMB Circular No. A-76 contract administration. The Army
Contracting Agency stated that ongoing OMB Circular No. A-76 studies
presented challenges in an area already understaffed and under-resourced,
increasing future resource concerns.

        The Army Audit Agency identified a significant weakness in the ability of
the Army to perform adequate contract administration of service contracts in
Report No. A-2002-0580-AMA, “Managing Service Contracts,” September 23,
2002. The significant audit findings included ineffective planning for quality
assurance requirements and lack of surveillance plans overall. The Acting
Secretary of the Army stated in the FY 2003 Annual Statement of Assurance that
several major commands had actions ongoing to improve various aspects of
contract administration; however, an overall strategy for administering service
contracts was needed. The targeted correction date for the weakness was the
second quarter of FY 2005.

        In an FY 2003 Memorandum of Understanding between the Installation
Management Agency and the Army Contracting Agency, the Installation
Management Agency agreed to provide contract administration spaces to the
Directorates of Contracting when a public-private competition was awarded to a
contractor. According to an Installation Management Agency official, the
Installation Management Agency will fulfill its obligation for contract
administration positions resulting from competitions going forward, but did not
commit to fix problems regarding contract administration shortfalls resulting from
legacy competitions that were executed by the predecessors of the Installation
Management Agency.

        Navy Contract Administration. The Navy had not publicly announced
any public-private competitions under the revised circular. However, according
to personnel at the Navy Competitive Sourcing Office and the Strategic Sourcing
Acquisition Center of Excellence, any contracts resulting from a performance
decision favoring a private sector provider in a public-private competition would
be administered by the responsible claimant or activity.

       Air Force Contract Administration. The Air Force had not publicly
announced any public-private competitions under the revised circular. However,
according to personnel at the Air Force Competitive Sourcing and Privatization
Division and the Air Force Manpower Agency Competitive Sourcing Division,
any contracts resulting from a performance decision favoring a private sector
provider in a public-private competition would be administered by the responsible
major command.



                                     20
     Appendix C. Number of Public-Private Competitions and Contracts Awarded
                                                                                    Final
           Sites Visited and/or Competitive          Number of Competitions Performance Decisions                     Support                          Estimated
           Sourcing Personnel Interviewed             Planned Announced In-house Contractor                       Contractors Used                  Contract Amount
      Office of the Assistant Chief of Staff for
         Installation Management                         0           0          0          0
      Army Corps of Engineers Headquarters               2           2          0          0                         Sytel, Inc.                         $ 548,187
                                                                                                        Interactive Technologies Group, Inc.              1,261,957
                                                                                                           E. L. Hamm & Associates, Inc.                     68,632
                                                                                                          Logistics Management Institute                    551,941
      Army Contracting Agency Headquarters               0           0          0          0
      Army Contracting Agency-Northeast                  0           0          0          0
      Installation Management Agency Headquarters        1           0          0          0                 Management Analysis, Inc.                      265,440
      Installation Management Agency-Northeast           0           0          0          0
      Navy Strategic Sourcing Office Headquarters        2           0          0          0                   Value Systems Services                       135,463
       Acquisition Center of Excellence                  0           0          0          0
21




      Air Force Headquarters
       Competitive Sourcing Privatization Division       1           0          0          0        Science Application International Corporation          1,500,000
      Air Force Manpower Agency                          0           0          0          0
      Marine Corps Headquarters
       Business Enterprise Office                        1           0          0          0
      Defense Logistics Agency
       Competitive Sourcing Division                     3           0          0          0
      Defense Contract Management Agency                                                               BAE Systems Analytical Solutions Inc.                112,174
         Competitive Sourcing Office                     12         12          11         0                Warden Associates, Inc.                         106,409
      Department of Defense Education Activity
        Commercial Activities Program Office             10          8          4          0                   Warden Associates, Inc.                      756,297
       Total                                             32         22          15         0                                                              $5,306,500
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency
Director, Defense Contract Management Agency
Director, Department of Defense Educational Activity

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        23
Deputy Under Secretary of Defense
(Installations and Environment) Comments




                     25
Final Report
 Reference




Revised




               26
27
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Contract Management prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report
are listed below.

Henry F. Kleinknecht
Anella J. Oliva
Rebecca L. Yovich
Nicole M. Ellis
Meredith H. Johnson
